                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington, D.C. 20230




August 23, 2012


MEMORANDUM FOR: 	 Scott B. Quehl
                               Chief Financial   Offi~ and Assi/1nt S~
                                                                     cre 'ry for Administration
FROM:                          Ann C. Eilers     ~'\M- (_!              _]L
                               Principal Assistant Inspector General or Audit and Evaluation

SUBJECT: 	                     Nonfederal Audit Results for the 6-Month Period Ending
                               June 30, 20 12

This memorandum provides an analysis of nonfederal audit reports, including a summary of
findings, that OIG reviewed during the 6-month period ending June 30, 2012, for entities
receiving federal awards that are subject to audit requirements. Section I discusses audit
reports submitted for states, local governments, tribes, colleges and universities, and nonprofit
organizations. Section 2 discusses reports submitted for commercial organizations.

Section I: Analysis of Audits Submitted for States, Local Governments, Tribes,
Colleges and Universities, and Nonprofit Organizations

Nonfederal entities (states, local governments, tribes, colleges and univers ities, and nonprofit
organizations) that expend $500,000 or more in federal awards in a year are required by the
Single Audit Act of 1984, and Amendments of 1996, to have an annual audit of their federal
awards in accordance with OMB Circular A-133, "Audits of States, Local Governments, and
Non-Profit Organizations." The purpose of the Single Audit Act is to set forth standards for
obtaining consistency and uniformity among federal agencies with the aud it of nonfederal
entities expending federal awards. The single audit includes a review of the entities' financial
statements and Schedule of Expenditures of Federal Awards. The auditor determines whether
the statements are presented fairly; tests internal controls; and determines compliance with
laws, regulations, and the provisions of the contracts or grant agreements that may have a
direct and material effect on each of the major programs.

All auditees electronically submit to the Federal Audit Clearinghouse a data collection form (a
summary of audit results), as well as a copy of the reporting package, consisting of

   •   financial statements,
   •   a schedule of expenditures of federal awards,
   •   a summary schedule of prior audit findings,
   •   auditor's reports of compliance and opinion on the financial statements, and
   •   a corrective action plan.
Federal awarding bureau responsibi lities in connection with the Single Audit Act include

     • 	 advising recipients of requirements imposed on them by federal laws, regulations, and
         the provisions of contracts or grant agreements;
     • 	 ensuring audit completion and report receipt;
     • 	 providing technical advice to aud itees and auditors; and
     • 	 issuing a management decision on audit findings within 6 months after receipt of the
         audit report- and ensuring that the recipient takes appropriate and t imely corrective
         action. See OMB Circular A- 133, subpart D, section 400 (c).

 O IG is responsible for reviewing the submitted audit report and auditee responses and
 determining whether the recommendations can be implemented. In instances with
 nonresolution findings, we notify the respons ible bureau of the finding(s) and emphasize the
 importance of resolution of the findings(s) before the next audit; however, a formal response in
 accordance with DAO 213-5, "Audit Resolutions and Follow-Up," is not required. In instances
 with material find ings, DAO 213-5 requires a formal response. O IG notifies the auditee, and the
 responsible bureau of the fi nding(s). We work with the bureaus to ensure they prepare written
 determinations, specifying concurrence or nonconcurrence with each recommendation. The
 written determination presents a specific plan of corrective action, with appropriate target
 dates for implementing all accepted recommendations. We conduct this review on an ongoing
 basis, and we intend to present summary analyses semiannually.

 We reviewed each report for compliance w it h the reporting requirements of OMB Circular A­
 133 (but not the quality of the underlying audits) and analyzed the resu lts. Table I summarizes
 our observations.

                                                 Table I.
                Analysis by Bureau for OIG-Reviewed Single Audit Reports, January- June 2012
                                               Percentage
                                Reports
                Reports                        of Reports        Material      Non resolution        Total        Questioned
 Bureau                           with
               Reviewed                           with           Findingsa       Findingsb          Findings         Costs'
                                Findings
                                                Findings
EDN                  71              54              76                16               82                98      $470,087
NOAA                 22                5             23                 7                8                 IS      304, 151
NTIA                 10                5             50                0               24                 24         9,549
NIST                 II                2              18               0                 4                  4              0
Multiple             60               II              18               0                 0                  0              0
ITA                   2                0               0               0                 0                  0              0
T O TAL             176              77              44              23               11 8               14 1    $783,787
• Material findings are those with questioned costs greater than o r equal to $ 10,000 and/or significan t nonfinancial findings.
b Nonresolu tio n findings are t hose with questio ned costs less than $1 0,000 o r adm inistrative findings.
c Questioned costs ar e subj ect to change through the audit resolution/appeal process.
d EDA also had $213.758 in funds to be pu t to better use.



As shown in table I, there we re

     • 	 44 percent of all reports reviewed that contained at least one finding;
     • 	 16 and 7 material findings for EDA and NOAA, respectively;


                                                                                                                         2
    • 	 between 4 and 82 nonresolution findings (less significant or procedural findings whose
        resolution is not monitored by OIG), at each of four Commerce bureaus; and
    • 	 approximately $784,000 of questioned costs identified for all Commerce programs.

Table 2 provides a summary analysis of reports reviewed, including the number of reports with
findings (both material and nonresolution). with emphasis on the number of material findings by
Commerce program.

                                                Table 2.
    Findings in OIG-Reviewed Single Audit Reports, january-June 2012 by Commerce Program,
               Identified by Catalog of Federal Domestic Assistance (CFDA) Number
                                                      Number of Number
                                                                            Percentage
                                                         Awards       of
                                                                            of Awards  Material
  Bureau               Program            CFDA        Included on  Awards
                                                                               with    Findings
                                                         Reports     with
                                                                             Findingsa
                                                       Revieweda  Findingsa
               Economic Development
               Support for Planning
EDA            Organizations              11 .302          36         6         17          I
               Economic Adjustment
               Assistance-Revolving
               Loan Fund (RLF)
EDA            Program                    11.307           104        46        44        IS
NOAA           Sea Grant Support          11.417           42           I         2         I
               Pacific Salmon Treaty
NOAA           Program                    11.438           20           I         5         2
NOAA            Habitat Conservation         11.463           44             4              9               4
• A report may have more than one award per CFDA program listed on the Schedule of Expenditures of Federal
Awards (SEFA). Table 2 includes each CFDA award line on the report SEFA. Therefore, values listed for table 2
may be higher than those for table I.

As shown in table 2, the Commerce bureau programs with the most material findings were
EDA RLF, with 15, and NOAA Habitat Conservation, with 4. The program with the highest
percentage of reports with material and/or nonresolution findings was EDA RLF, with 44
percent.

The most common finding types across all Commerce programs included noncompliance with
(I) reporting requirements (either deficient or late reports), (2) cost principles pertaining to
allowable costs, (3) cash management, (4) internal control policies concerning segregation of
duties, and (5) CPA independence requirements for performing the single audit-the firm
either played a large role in preparing the financial statements or assisted in the preparation of
the Schedule of Expenditures of Federal Awards .

There were 24 findings related to "Special Tests and Provisions" associated with the EDA RLF
Program. The findings included (I) noncompliance with RLF capital utilization rates (generally
EDA requires recipients to have at least 75 percent of the RLF's capital base loaned or
committed at any given time), (2) bank turndown letters that could not be located
(demonstrating that credit is not otherwise available), and (3) incorrect calculation of RLF
expenditures on the Schedule of Expenditures of Federal Awards.




                                                                                                                3
Section 2: Analysis of Audits Submitted for Commercial Organizations

Commercial organizations that receive federal funds from the Department are subject to award
requirements as stipulated in the award document. 1 The Department of Commerce Financial
Assistance Standard Terms and Conditions (March 2008) provides guidance that unless
otherwise specified in the terms and conditions of the award, an audit shall be performed when
the federal share amount awarded is $500,000 or more over the duration of the project
period. Additionally, it provides that an audit is required at least once every 2 years depending
on the length of the award and the terms and conditions of the award. Some Commerce
programs have specific audit guidelines that are incorporated into the award. When Commerce
does not have a program-specific audit guide available for the program, the auditor will follow
the requirements for a program-specific audit as described in OMB Circular A-133, section
.235.

Federal awarding bureau responsibilities in connection with for-profit audits, per the
Department of Commerce Grants Manual, include

       • 	 providing grants administration and programmatic guidance and support to recipients
           and
       • 	 reviewing the audit report and the recipient's response and preparing the audit 

           resolution proposal in accordance with DAO 213-5. 


OIG responsibility for the review of for-profit audits is the same as for single audits (see section
I). During the current review period, our analysis of audits submitted for commercial and other
organizations included the NTIA Broadband Technology Opportunities Program (BTOP)
awards, the N1ST Advanced Technology Program (ATP) awards, and the N1ST Technology
Innovation Program (TIP) awards.

BTOP awards span 3 years, and audits are due after the first and third years. The BTOP grants
were awarded in 20 I0, and all first-year audits have been submitted and reviewed. The year 3
audits are due beginning in calendar year 20 13.

ATP and TIP awards range from I to 5 years, and audits are due after the first, third, and fifth
years. The ATP program funded awards from 1990 through 2004 and then in 2007. The TIP
program replaced the ATP program, funding awards from 2009 through 20 I I. The last group of
audit report submissions is due in 2013 for ATP and in 20 IS for TIP.

For commercial audits, a copy of the program-specific audit reporting package, prepared in
accordance with program guidelines, is submitted to both the grants officer and the OIG (see
table 3).




1
    IS CFR sections 14.26(c) and (d).
                                                                                                  4
                                              Table 3.
                 Audit Guidance, Threshold, and Requirements for Reporting Packages
                            for Commercial Audit Submissions Reviewed


Bureau and program                                    NTIABTOP               NIST ATP              NISTTIP


CFDA number                                                 11 .557             11.612                I 1.616

                                                                                                  Government
                                                                                                    Auditing
                                                                           Program-Specific
                                                                                                 Standards and
                                                       Program-Specific    Audit Guidelines
Audit guidance                                                                                  program-specific
                                                       Audit Guidelines        (or ATP
                                                                                                audit guidelines
                                                          (or BTOP           Cooperative
                                                                                               described in OMB
                                                                             Agreements
                                                                                                 Circular A-133
                                                                                                      §.235
Audit threshold                                           >$1 00,000         All awards            All awards
Required components of audit repor ting package

 Schedule of funds' sources and project costs-by
 budget category                                              ..J                 ..J                   ..J
 Independent auditor's report'
  Report on the auditee's internal control over               "                   "                     "
 compliance and an opinion on compliance with
 direct and material requirements applicable to the
 program                                                      ..J                 ..J                   ..J
 Schedule of findings and questioned costs
                                                              "                   """                   ""
 Schedule of prior audit findings
 Corrective action plan                                       ""                                         v
 Management assertions                                            NN
                                                            If available-­          "                   NN

                                                               audit not
  Audited financ ial stat ements                               r equired            NAb                 NAb
•rhe independent auditor's report is the opinion (or disclaimer) as to whether the Schedule o f Funds Sources and
Project Costs award is presented fairly in all material r espects in conformity with Generally Accepted Accounting
Principles or another comprehensive basis of accounting.
bNot applicable.


We reviewed each report for compliance with the applicable reporting requirements (but not
the quality of the underlying audits) and analyzed the results. Table 4 summarizes our
observations.




                                                                                                                     5
                                                      Table 4.
                  Analysis by Bureau for OIG-Reviewed Commercial Audit Reports, January-June 20 12"
                                             Reports                             Non-
                                 Reports               % Reports     Material                Total                              Questioned
Bureau      Program CFDA                     with                                resolution
                                 Reviewed              with Findings Findingsb               Findings                           Costsd
                                             Findings                            Findings<
  NTIA        BTOP         I 1.557         53             34              64               7              63            70           $ 72.728
  NIST         ATpe        11.612          23             8               35               5              16            21           130,973    I
   NIST          TIP        11.616         38            25                66              4            117            121          222,327     I
' Each of these programs has recipients that could be subject to audit in accordance w ith OMB Circu lar A-1 33. If significant. results for
those reviews appear in section I.
bMaterial findings are those with questioned costs greater than or equal to $10,000 and/or significan t nonfinancial findings.
<Non resolution findings are those with questioned costs less than $1 0,000 or administrative findings.
dQuestioned costs are subject to change through the audit resolution/appeal process.
•ATP also had $1 5,337 in funds to be put to better use.


          The most common finding types across the BTOP program included noncompliance with (I)
          applicable policies or procedures (either not having or not following them), (2) cost principles
          for allowable costs, (3) reporting requirements (either deficient or late reports), (4) audit
          report requirements to prepare the Schedule of Expenditures of Federal Awards using the
          applicable budget for the period, and (5) equipment and real property management
          requirements. The most common finding types across the ATP program included
          noncompliance with award requirements for (I) allowable activities, (2) allowable costs, (3)
          procurement, (4) matching cost share, and (5) subrecipient monitoring.

          The most common finding types across the TIP program included noncompliance with award
          requirements for (I) allowable activities, (2) allowable costs, and (3) cash management.

          Our nonfederal audit team, which will provide the bureaus a detailed summary of the findings, is
          ready to discuss these results in more detai l as the Department proceeds with the resolution of
          findings. If you have any questions, please contact me at (202) 482-4661 or Andrew Katsaros at
          (202) 482-7859.

          cc: 	    Lisa Casias, Director for Financial Management and Deputy Chief Financial Officer
                   Barry E. Berkowitz, Director, Office of Acquisition Management
                   Gordon Alston, Deputy Director for Financial Management
                   Julie Tao, Director, Office of Internal Controls, Office of Financial Management
                   Gary Johnson , Office of Acquisition Management, Grants Management Division
                   Hari Sastry, Deputy Assistant Secretary for Resource Management
                   Mark Daley, Deputy Director, Office of Acquisition Management
                   Joanne Buenzli Crane, Acting Chief Financial Officer, NOAA
                   Sandra Walters, Chief Financial Officer, EDA
                   Len Bechtel, Director and Chief Financial Officer, NTIA
                   George E. Jen kins, Chief Financial Officer, NIST
                   Edith McCloud, Associate Director for Management and Chief Financial Officer, MBDA




                                                                                                                                 6
